Report on Agreed-Upon Procedures Related to
Performance Monitoring for Indicators Appearing in
the FY2003 Results Review and Resource Request
Report for Selected Missions
9-000-02-001-S

July 31, 2002




                  Washington, D.C.
Office of Inspector General
Performance Audits Division


                                                                           July 31, 2002


MEMORANDUM

FOR:               DAA/PPC, George Wachtenheim

FROM:              IG/A/PA, Dianne L. Rawl /s/

SUBJECT:           Report of Agreed Upon Procedures Relating to USAID's Performance
                   Monitoring for Indicators Appearing in the FY 2003 Results Review and
                   Resource Request Report for Selected USAID Missions
                   (Report No. 9-000-02-001-S)

The attached report contains the results of agreed-upon procedures performed at selected
USAID operating units by Williams, Adley & Company, LLP under a contract with the
Office of Inspector General. Our primary purpose for contracting for these procedures
was to obtain an understanding of USAID's internal control structure related to
performance measures contained in the Management Discussion and Analysis section of
USAID's fiscal year 2001 financial statements.

This report is for your information only and contains no formal recommendations for
action on your part. We provided your office with an opportunity to comment on this
report. A copy of your submitted comments is included in the following pages.

In response to your first general comment, we agree that the discontinued use of the R4
system somewhat limits the utility of this report. However, we believe that its content
discusses many important issues of concern regarding continuing noncompliance with
program performance monitoring that are still relevant under the new Annual Report
system. Your second general comment was that the report omitted information on which
indicators were examined, making it difficult to assess whether the deficiencies affected
the formal performance reporting system. We note that the report clearly states on page 1
that the procedures conducted by the contractor teams included only indicators appearing
in the fiscal year 2003 R4 report. Thus, we disagree that this information was not
included in the report.

We appreciate the cooperation and courtesies extended to Williams, Adley & Company,
LLP during their reviews.
                                    JUN 18, 2002


MEMORANDUM

TO:          IG/A/PA, Dianne Rawl

FROM:        DAA/PPC, George Wachtenheim /s/

SUBJECT:     Report on Agreed Upon Procedures


   Many thanks for giving us the opportunity to review and
comment on the recent report on agreed-upon procedures
performed at selected USAID operating units by Williams, Adley
& Co. The report raises issues similar to those identified in
previous audit reports and in our own experience. As such we
found it very informative; once it is issued in final, we plan
to give it wide distribution among our field missions and
Washington offices.

   That said, we have only two general comments about the
report:

      •    First, we note that it is based on the old Results
           Review and Resource Request (R4) system, which USAID
           has replaced with the new Annual Report. The Annual
           Report relies on a more limited, standardized, and
           more reliable set of performance indicators than did
           the old R4 process. Given these changes in our
           approach to the gathering of annual performance data
           from our operating units, the utility of the findings
           of the Williams, Adley, & Co. report is somewhat
           limited.

      •    Second, it is unclear from the Williams, Adley, & Co.
           report whether the team examined all indicators
           contained in the Performance Management Plans of the
           missions they visited or only those indicators
           submitted as part of the R4 reporting. Since the
           data quality standards set forth in ADS 203 were
         intended to apply only to those indicators actually
         reported in the R4, and not to other indicators
         contained in PMPs but not reported, this omission
         makes it difficult to assess whether the deficiencies
         noted by the team actually affected our formal
         performance reporting system.

     Again, thanks for the opportunity to review and comment on
this document. We look forward to its issuance in final form,
and to working with you as we continue to refine our
performance reporting processes.
        Report on Agreed-Upon Procedures Related to


Performance Monitoring for Indicators Appearing in the FY 2003
Results Review and Resource Request Report for Selected USAID
                          Missions




                         Presented to


      United States Agency for International Development
                Office of the Inspector General
                       Washington, DC


                      February 8, 2002




                         Prepared by

              Williams, Adley & Company, LLP
                                                         Table of Contents


Section Title                                                                                                             Page


   Accountants’ Report on Agreed-Upon Procedures..................................................1

Section I

   Introduction and Background ...................................................................................2

Section II

   Summary of Results.................................................................................................3

Section III

   Review Objective, Scope, and Methodology...........................................................4

Section IV

   Details of Findings and Recommendations..............................................................6

              India..............................................................................................................6

              Nicaragua ...................................................................................................11

              Mali ............................................................................................................13

              Kenya .........................................................................................................14

              Ukraine.......................................................................................................17

              Ghana .........................................................................................................20
                 INDEPENDENT ACCOUNTANTS’ REPORT ON
                   APPLYING AGREED-UPON PROCEDURES


United States Agency for International Development
Office of the Inspector General

Williams, Adley & Company, LLP was engaged by the United States Agency for
International Development (USAID) Office of the Inspector General (OIG) to conduct
certain agreed-upon procedures related to the performance monitoring for indicators
appearing in the fiscal year (FY) 2003 Results Review and Resources Request (R4)
Report. Section 1 of the attached report provides an introduction and background of the
engagement. Results of the reviews are summarized in Section II. Section III of the
report describes the objective, scope and methodology used in performing the reviews
and includes a summary of the procedures performed. The procedures were performed
from June 11, 2001 to July 21, 2001. This agreed-upon procedures engagement was
performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards utilizing procedures
agreed to by the OIG. The sufficiency of the procedures described in this report is the
responsibility of the specified users of the report. Consequently, we make no
representations regarding the sufficiency of the procedures for the purpose for which this
report has been requested or for any other purpose.

On the basis of our review, we found that required controls were not fully implemented
by the missions to ensure compliance with USAID guidance related to R4 reports. The
conditions noted for each mission are presented in Section IV of the attached report.

We were not engaged to, and did not perform an examination, the objective of which
would be an expression of an opinion on district management’s assertions. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other
matters may have come to our attention that would have been reported to you.

This report is intended solely for the use of USAID.


Williams, Adley & Company, LLP /S/
July 21, 2001
                                       Section I
                             Introduction and Background


Introduction

Williams, Adley & Company, LLP was contracted by the USAID Office of the Inspector
General to perform certain agreed-upon procedures at selected USAID Missions. The
procedures related to performance monitoring for selected indicators appearing in the FY
2003 Results Review and Resources Request Report. This report presents the results of
the procedures performed at each mission visited.

Background

The Government Performance and Results Act of 1993 (Results Act) was passed to
improve Federal program effectiveness and public accountability by promoting a new
focus on results, service quality, and customer satisfaction. The Results Act was
designed to improve Federal managers' service delivery by requiring that they plan for
meeting program objectives and by providing them with information about program
results and service quality. It was also designed to improve Congressional decision-
making by providing more reliable information on the status of efforts to achieve
statutory objectives and on the relative effectiveness and efficiency of Federal programs
and spending.

In 1995, USAID developed a new performance reporting system that included an
organized process for monitoring the progress of a program, process, or activity towards
its objective over time. USAID's new performance monitoring system required managers
to: (1) establish performance indicators, (2) prepare performance monitoring plans, (3)
set performance baselines, (4) collect performance data, and (5) periodically assess data
quality.

One component of USAID's new performance monitoring system has been the
preparation of annual Results Review and Resource Request (R4) reports. These reports
are the most significant performance reports that the Agency's individual operating units
send to their respective bureaus. USAID's Automated Directives System (ADS) requires
that the information in the R4 reports be used, as appropriate, for internal analyses,
responding to external inquiries, and reporting on USAID-wide results, including Results
Act reporting.




USAID – OIG/PA
Agreed-Upon Procedures Report                                                     Page 2
                                     Section II
                                  Summary of Results



The table below provides a summary of the results from each mission visited. The details
of the findings are presented in Section IV of this report.



                             Data Quality         Performance
                                                                        Data Limitation
                            Assessment Not       Monitoring Plans
                                                                         Not Properly
                             Performed or        Not Complete or
                                                                          Disclosed
                             Documented              Updated

          India                    4                     4                     4

       Nicaragua                   4                     4                     4

          Mali                                           4

         Kenya                                           4

     Kenya/REDSO                                         4

        Ukraine                    4                     4                     4

         Ghana                     4                     4                     4




USAID – OIG/PA
Agreed-Upon Procedures Report                                                      Page 3
                                       Section III
                        Review Objective, Scope, and Methodology



Objective

The overall objective of the procedures performed was to assist the OIG in its assessment
of the selected missions’ internal controls for monitoring performance indicators and in
its determination of whether quality data is collected, maintained, processed and reported
in the missions’ R4 submission.

Scope

The following USAID Missions were included in this review: India, Nicaragua, Mali,
Kenya, Ukraine, and Ghana. With the exception of Ghana, where limited coverage
procedures were performed, all missions were subject to full coverage procedures. The
scope of work at the missions subject to full coverage procedures included: monitoring of
performance plans, evaluating data quality assessments, reviewing the unit’s self
assessment, timing for results data, and Federal Managers’ Financial Integrity Act
(FMFIA) compliance. The scope of work in Ghana was limited to the following: timing
for results data, follow-up on prior recommendations, review of the unit’s self-
assessment, and FMFIA compliance.

Fieldwork was conducted at the missions from June 11, 2001 through July 21, 2001.

Methodology

We utilized the methodology provided by USAID OIG as fully described in the OIG
audit program dated May 3, 2001. This methodology consisted primarily of procedures
to determine whether the missions:

            •   Prepared performance monitoring plans that: (1) contained a detailed
                definition of the indicator that included all technical elements of the
                indicator, (2) identified all data sources, (3) described the data collection
                method in sufficient detail to enable it to be applied consistently in
                subsequent years, (4) specified frequency and schedule of data collection,
                and (5) assigned responsibility for collecting data

            •   Completed an assessment of data quality for the indicators at an interval of
                no greater than three years

            •   Reported data that was adequately supported by source documents



USAID – OIG/PA
Agreed-Upon Procedures Report                                                        Page 4
          •   Reported baseline data in the R4 that was comparable to the data reported
              for the indicator

          •   Disclosed known data limitations, if any, in the comments section of the
              R4 report




USAID – OIG/PA
Agreed-Upon Procedures Report                                                   Page 5
                                        Section IV
                        Details of Findings and Recommendations



This section presents the results of our review at each of the six missions visited.

India


Data Quality Assessment Was Not Documented

Contrary to USAID guidance, we noted that the Data Quality Assessment (DQA) was not
documented in the R4 "Comments" section for the following selected indicators: 2.2.1,
3.1.2 and 4.2. We also noted that DQAs were either not performed or not documented by
the Strategic Objective (SO) teams for these indicators. The following paragraphs
describe the situation noted for each of the 3 indicators reviewed:

   •    Indicator 2.2.1 - Contraceptive prevalence rate for the 28 PERFORM districts of
        Uttar Pradesh. Data quality is related to the reliability of the data obtained via the
        1995 PERFORM baseline survey and of the data obtained by subsequent annual
        surveys. The mission believes the annual survey, fielded in January by local
        research groups that are managed by the mission's contractor, The Futures Group
        International, is comparable to the 1995 PERFORM survey. However, neither the
        mission nor an independent entity, however, has verified this comparability or
        performed an assessment of the data and/or system for generating the data
        provided by the Cooperating Agency (CA) and its subcontractors.

        The Strategic Objective (SO) team overseeing this indicator stated that a DQA
        had been performed on this indicator based on the built-in quality controls used to
        mitigate sampling and non-sampling errors. The SO annual survey is based on
        interviews and data collection skills employed by the Demographic Health Survey
        (DHS) agency. According to the strategic objective members, the subcontractor
        employed DHS methodologies and most of their quality controls when conducting
        the annual survey. However, the team was unable to provide documentation that
        this had occurred during FY 2000.

   •    Indicator 3.1.2 - Average number of Anganwadi Centers conducting at least one
        monthly nutrition and health day with take home ration and immunization/ante-
        natal check up. This indicator was established during FY 2000 but we found no
        evidence that a DQA was performed for or documented in the FY 2002 R4 report.
        There is no mention of a DQA in the FY 2003 “Comment” section either.
        According to the SO team members, while no formal and specific data quality
        assessment was performed solely for this indicator at the time it was established,
        the SO team believed that reliance could be placed on the DQAs performed for
        the other indicators within the SO. Since these DQAs were performed within the


USAID – OIG/PA
Agreed-Upon Procedures Report                                                          Page 6
       last two years, the SO team thought it impractical to perform a DQA just for this
       indicator at this time.

   •   Indicator 4.2 - Increased number of firms that meet international environmental
       quality standards in selected industrial sectors. This indicator was first reported in
       the FY 2002 R4 report. The SO team did not conduct a DQA for this performance
       indicator because they felt the quality of the data was based on the ISO 14001
       certificate itself. The team, however, indicated that a DQA for SO4 is scheduled
       for later in FY 2001.

USAID's Automated Directives System, Section 203.3.6.6, Assessing the Quality of
Performance Data, states that operating units are to “…assess data quality when
establishing the performance indicators and when choosing data collection sources and
methods. For each indicator reported in the R4 performance data tables, data quality
must be reassessed as needed but no less than once every three years”. Further, when
conducting data quality assessments, “…operating units must review data collection,
maintenance, and processing procedures to ensure that they are consistently applied and
continue to be adequate. Document the assessment in the Comments section of the
appropriate R4 performance data table. Retain documentation of assessment in the
performance management files. Such documentation may be as simple as memoranda of
conversations with data sources and other informed officials.” This criteria also applies
to “data collected …through independent entities contracted for this purpose”.

In a 1998 OIG Report of Audit for USAID/India R4, Audit Report No. B-386-98-006-P,
it states that data obtained from a contractor “would only be considered from a reliable
source if USAID or an independent entity had performed an assessment of the data and/or
system for generating the data and found the data or system to be reliable”.


Data Source Was Not Specific

The R4 report for the SO2 performance indicator 2.2.1 did not specify the data source for
the annual population-based survey for the years 1998 through 2000. The R4 report
notes that this annual population-based survey is comparable to the 1995 PERFORM
survey. The Performance Data Table simply states that the survey is “fielded in January
each year”. Per the SO team and review of source documents, the Futures Group
International (FGI) manages this survey. FGI employs Indian research groups as local
subcontractors to implement the annual SO2 survey. The R4 narrative summary for this
SO did list the FGI as a major contractor and grantee, but did not indicate that FGI
oversaw USAID/India’s SO2 annual survey.

Because this SO2 indicator did not have an updated PMP, we viewed and tested the R4 as
if it were the PMP for the indicator. Therefore, we expected the R4 to contain the same
information as the PMP and serve the same function.

Per USAID’s TIPS Number 7 procedures, Section 1.2 Data Source, the data source
should be identified for each performance indicator. “The source is the entity from which
USAID – OIG/PA
Agreed-Upon Procedures Report                                                        Page 7
the data is obtained, usually the organization that conducts the data collection effort.
Data sources may include...contractors, or activity implementing agencies. Be as specific
about the source as possible, so the same source can be used routinely”.

The SO team noted that the Futures Group International was mentioned in the narrative
of the R4 report. The team indicated that they did not find it necessary to mention them
again in the Performance Data Table for this indicator.

Without specific data sources identified in the R4, it is difficult to determine if the data
collection methods remain consistent over the years and to determine the comparability
of the results.



Data Limitations Were Not Always Disclosed

The R4 Performance Data Table for the SO2 performance indicator 2.2.1 did not indicate
any data limitations related to the method of data collection used, i.e., obtaining data
through the 1995 PERFORM baseline survey and the annual surveys. Specifically, the
“Comments” section did not disclose the normal or potential sampling errors arising from
how the surveys were taken.

The SO2 team stated that reporting data limitations regarding the PERFORM baseline
survey or the annual SO2 survey was not required because: a) they had not seen other
missions putting such limitations in the Performance Data Tables, and b) they had
expressed confidence in the methodologies used by the SO2 survey takers, noting that
they mirrored those employed by DHS (the gold-standard of health survey collection
data). The local research organizations who take the SO2 survey were managed by the
mission's CA, the Futures Group International. FGI provides technical assistance to
improve the data quality from the design of the survey to data collection, analysis and
reporting.

The current description of the data limitations in the Performance Data table, however,
presents no details of any inherent survey limitations. Therefore, users of this
information have no means of determining the degree of reliance to place on the data.

We also noted for the SO4 performance indicator 4.2, the FY 2003 R4 stated that the data
reported represents the Government of India’s (GOI) fiscal year, April lst through March
3lst. The scopes of the results, however, were noted as follows: for FY 1999, the first
year of reporting this performance indicator, the results were reported for the GOI FY.
For year 2000, the current results data went beyond March 31st to December 2000. There
was no explanation in the R4 report as to why the current results were through December
and not through March. We noted that as of March 2000 the cumulative total of firms
receiving certification would have been 8, only one more that the 1999 results. As of
December 2000, the total was 17.


USAID – OIG/PA
Agreed-Upon Procedures Report                                                        Page 8
The reason for using the December 2000 cut-off date, per mission personnel, was that a
new technical assistance contractor Tetra Tech was hired in September 1999 and they
needed time to start up and become a part of the Clean Technologies Initiative. The
mission believed that using the March 31st cut-off date would not be fair to Tetra Tech
since they were just then making contact and progress with firms wanting to receive the
ISO certificate. The SO4 team leader indicated that for FY 2002, the results would go
back to the March 31st cut-off date and there would be an explanation of the changing
cut-off dates in the next R4 report.

The current description of the data limitations in the Performance Data Table does not
explain why the cut-off date for the data has changed from one year to the next. The
users of this information are left to wonder if there are other data limitations that have not
been divulged, and/or if data is being manipulated to promote better performance results.

USAID's FY 2003 Results Review and Resource Request (R4) Guidance, Section C -
Performance Data Tables, says to “use the ‘comments’ section of each data table to
elaborate on the following: interpretation of the reported data, particularly to add
qualitative interpretation to quantitative data, and significant data limitations and their
implications for measuring performance results against anticipated performance targets."

USAID’s Automated Directives System, Section 203.3.6. 1, states “any data quality
limitations must be noted in either the text or in the notes section of the R4 data table”.


Performance Indicator Misleading

In the R4 Performance Data Table for SO4 performance indicator 4.2, the definition
states that the actual numbers represent firms that have “obtained ISO 14001
certification.” A note in the “Comments” section identifies the actual numbers of firms
that have received certificates as of December 2000. After reviewing copies of the
certificates, however, it was noted that for 3 of the 17 firms (i.e., SRF, Rubamin, and
Bongaigaon Refinery) the certificates were not effective until January and February 2001.
It appears that the definition is misleading because some firms have not actually obtained
the ISO certification.

Per ADS Section 203.3.6.5a, performance indicators that are reported in the R4 report
should be… unambiguous about 1) what is being measured. Objective indicators are uni-
dimensional and operationally precise.

According to the SO4 team leader, the 3 firms were recommended for certification by the
Tetra Tech/CTI group in the calendar year 2000 but were not actually certified by the
certifying agencies until 2001. The team leader indicated that it may take a couple of
weeks, or even a month or more, before firms receive the actual ISO certificate after
being recommended for certification.



USAID – OIG/PA
Agreed-Upon Procedures Report                                                          Page 9
Without a more precise definition, the user may be led to believe that all the firms have
actually received the ISO certification. Firms recommended for certification may not
actually receive certification. Including recommended firms, without including this as
part of the indicator definition, may be interpreted as a way for the USAID/India to
artificially improve its performance results.




Performance Monitoring Plans Are Not Updated

USAID/India has formally approved Performance Monitoring Plans (PMP) dated April
1996 for SO2, SO3, and SO4. These PMPs, however, have not been updated to include
the new performance indicators selected for testing in SO3 and SO4, and the updated
performance indicator selected in SO2. Thus, the PMPs do not reflect what USAID/India
is currently doing.

For each selected indicator we were unable to trace the following to the PMP: the
definition of the performance indicator, data source, data limitations and how the unit
would address the known limitations, method of collecting data, frequency and schedule,
assignment of responsibilities, and the method to assess data quality.

USAID’s Automated Directives System, Section 201.3.4.13.a, states that “SO Teams
should review and update their PMPs at least annually as part of the Portfolio Review and
R4 preparation”.

ADS, Section 201.3.4.13.a, also states that, at a minimum, PMPs must:

   •   Provide a detailed description of the performance indicators to be tracked
   •   Specify the source, method, and schedule for data collection and assign
       responsibility for data collection to a specific office, team, or individual
   •   Describe the known data limitations, discuss the significance of the limitations for
       judging the extent to which goals have been achieved, and describe completed or
       planned actions to address these limitations
   •   Describe the quality assessment procedures that will be used to verify and validate
       the measured values of actual performance

Mission officials stated that the PMP was scheduled to be updated for 1998 but was put
on hold after India performed nuclear tests and the United States imposed sanctions on
aid to India. During FY 99, the USAID/India was uncertain as to how many of its
programs, if any, would survive.

In 2000, the USAID/India intended to update the PMP, but a new strategic plan was then
in development. Additionally, USAID/India experienced significant staff turnover and a
new United States administration began. As a result, updating the PMP was postponed
until 2001.

USAID – OIG/PA
Agreed-Upon Procedures Report                                                       Page 10
In early 2001, PricewaterhouseCoopers and the Center for Development and Information
Exchange (CDIE) came out to USAID/India and provided to project managers a PMP
development workshop. In June 2001, the USAID/India Director went to
USAID/Washington to present some parameter papers including the strategic plans for
the near future.     The USAID/India is awaiting comments and approval from
USAID/Washington before completing its update of the PMP.

Without properly updated PMPs for the strategic objectives, the SO Team is lacking in
the major management tool it needs to adequately plan, monitor, and assess performance
results and to achieve performance improvement. The process of updating a PMP is
important to the SO Team for its own self-assessment and awareness of what its goals
are; this process supports a results-focused program management.

Nicaragua

Data Quality Limitations Were Not Always Disclosed

Contrary to USAID guidance, USAID/Nicaragua did not disclose data limitations in the
R4 for Strategic Objective 1.5 – Decrease in Human Rights Violation. The indicator
measures the number of human rights violations reported in a given year. The categories
of complaints include: abuse of authority, physical assault, arbitrary/illegal arrest, torture,
and others. During an interview with the Strategic Objective team leader, we were told
that the mission relies on data collected by the Nicaraguan Association for Human Rights
(ANPDH). The data collected, however, does not cover the whole geographic region or
the entire population affected. This limits the degree to which the data can be relied upon
as a statistical representation of the population as a whole.

USAID's FY 2003 Results Review and Resource Request (R4) Guidance, Section C -
Performance Data Tables, says to “use the ‘comment’ section of each data table to
elaborate on the following: interpretation of the reported data, particularly to add
qualitative interpretation to quantitative data, and significant data limitations and their
implications for measuring performance results against anticipated performance targets”.

According to mission officials, this occurred because SO team members may have been
unaware of the need to include them in the mission’s R4. As a result of not disclosing the
above data limitation, readers of the mission’s R4 report might misinterpret reported
results as being accurate and reflective of the population as a whole. Consequently,
USAID management, Congress, and the public did not have sufficient information to
determine how much reliance could be placed on the data reported for the indicator in
question.

Data Quality of Performance Indicators Was Not Assessed

Contrary to USAID guidance, USAID/Nicaragua did not indicate in the R4 that the
required Data Quality Assessments (DQA) for the three performance indicators: 5 –
Decrease in Human Rights Violations, 3 – Agricultural Growth Rate, and 9 – Births
USAID – OIG/PA
Agreed-Upon Procedures Report                                                         Page 11
Attended by Trained Personnel were performed. Although, in various conversations with
team members, it was stated that DQA were conducted primarily through field visits, the
SO teams did not provide any evidence to support the performance of a DQA. We noted
that each Strategic Objective team does not have a documentation system in place to
record their assessment of the data from their sources. The team members indicated they
rely primarily on field visits to assess data quality.

USAID guidance under ADS 203.3.6.6 requires operating units to perform DQAs when
performance indicators are established and at least every three years thereafter.
Additionally, ADS 203.3.6.6 states that when conducting data quality assessments,
operating units must document the assessment in the “Comments” section of the R4
performance data table and retain documentation of the assessment in the SO Team’s
performance management files.

These conditions resulted because mission personnel were either unaware of the
requirements or unclear how to implement the requirements. Without performing
required DQAs, USAID/Nicaragua cannot be assured that data quality met validity,
timeliness, and reliability for result-oriented management, and poor quality data could
adversely affect management decisions relating to the use of scarce program funds.

Performance Monitoring Plans Were Incomplete

Contrary to USAID guidance, USAID/Nicaragua did not provide a clear definition for
Strategic Objective 2, indicator 3 - Agricultural Growth Rate - in its Performance
Monitoring Plan. The definition does not precisely define all technical elements of the
indicator statement.

We also found that each selected SO’s data source was not referenced in the PMP as
dictated in TIPS 7. TIPS 7 states that the PMP should define, in detail, the data source.
For example, it should state the data source as ABC organization, report number XYZ.
Although the PMP states Central Bank National Accounts Department as the data source
for SO2, it does not provide the publication number or which edition should be used.

Additionally, we found that the performance monitoring plans for SOs 1, 2, and 3
indicators did not list the frequency, schedule and the responsibility of the data collection.
Through inquiry of the team leaders, we determined how often data was collected, and
who was responsible for handling/interpreting the data. This information, however, was
not disclosed in the PMP. According to the TIPS 7, the PMP must describe the frequency
and schedule of data collection. In the case of SO1, the PMP did indicate how often data
is collected from one of their sources. The PMP, however, did not explain in detail the
methodology of data collection for any of the selected indicators as mapped out in TIPS
7. For example, the PMP related to the Decrease in Human Rights Violations indicates
what the indicator measures, ie the number of human rights violations reported in a given
year, but does not discuss how the data was obtained, when, or how often.




USAID – OIG/PA
Agreed-Upon Procedures Report                                                        Page 12
ADS 201.3.4.13a states “Performance monitoring plans shall be prepared for each
strategic objective. Specifically, PMPs shall provide detailed descriptions of the
performance indicators to be tracked and specify the source, method, and schedule for
data collection”. TIPS No 7 indicates that information included in a PMP shall enable
comparable performance data to be collected over time, even in the event of staff
turnover, and shall clearly articulate expectations in terms of schedule and responsibility.
In addition, TIPS 7 states that the PMP should specify the method or approach to data
collection for each indicator. Sufficient details on the data collection or calculation
method should be provided to enable the method to be replicated.

TIPS 7 states that the performance monitoring plans must describe the frequency and
schedule of data collection, and designate data collection responsibilities to an office,
team, or individual.

Mission personnel indicated that they may not have been aware of USAID’s requirement
to define the performance indicators, map out the methodology used in acquiring data,
and to make a detailed reference to the data source as indicated in the ADS.

Without precise indicator definitions and data collection methodologies in the mission’s
performance monitoring plan, USAID/Nicaragua may be left without critical tools for
planning, managing, and documenting data collection. Without the precise frequency,
schedule, and list of responsible parties in the mission’s performance monitoring plan,
USAID/Nicaragua may be left without critical tools for planning how performance
information will be reported, reviewed, and used for effective managing for results.

Mali

Performance Monitoring Plans Were Incomplete and Outdated

Contrary to USAID guidance, USAID/Mali did not provide clear data sources in its
Performance Monitoring Plans for indicator 2.1.1, and for the indicator 3.1, the data
sources listed are vague.

SO2 data sources indicated in the PMP were: producers, DNA/DNSI, Extension Service,
SIM, Banks, NGOs, and NBFIs. The PMP, however, did not provide a legend to these
acronyms nor identify which bank or NGO it was referring to.

Additionally, indicator 2.1.1 did not adequately define the data collection method. The
information provided in the PMP does not describe the survey type, when and where it
will be given, or who will administer the survey.

The data source for SO3 as stated in the PMP was private voluntary organizations (PVO)
progress reports. The PMP did not specify which PVO or which specific progress reports
were referenced.




USAID – OIG/PA
Agreed-Upon Procedures Report                                                      Page 13
ADS 201.3.4.13a states “Performance monitoring plans shall be prepared for each
strategic objective. Information included in a PMP shall enable comparable performance
data to be collected over time, even in the event of staff turnover, and shall clearly
articulate expectations in terms of schedule and responsibility. Specifically, PMPs shall
provide detailed descriptions of the performance indicators to be tracked and specify the
source, method, and schedule for data collection”. In addition, TIPS 7 states that the
PMP should specify the method or approach to data collection for each indicator.
Sufficient details on the data collection or calculation method should be provided to
enable the method to be replicated. According to TIPS 7 the plan should identify the data
source for each performance indicator. The plan should be as specific as possible so that
the same source may be used routinely.

Switching data sources for the same indicator over time may lead to inconsistencies and
misinterpretations. These conditions occurred because, as mission personnel indicated,
the teams did not fully understand the requirements.

Without the precise data sources and data collection methods in the mission’s PMP,
USAID/Mali may be left without critical tools for planning how performance information
will be reported, reviewed, and used for effective managing for results. The lack of
specific data sources increases the risk of inconsistent and incomparable performance
information from year to year.

We also noted that for indicator 2.1.1 - “Absolute volume of paddy produced in given
year in SEG targeted areas” and indicator 1.3 - “Percentage of target COs for which there
is evidence that for any single reason”, the performance indicator definitions were not the
same in the PMP as they were in the R4 report. The PMP information should form the
substance of the R4 report submission.

ADS 201.3.4.13 “Planning for Performance Management” states …“In addition, strategic
objective teams are required to review and update their PMPs at least annually as part of
the Portfolio and R4 preparation”.

The SO team leaders indicated that the team members did not fully understand the PMP
and R4 report requirements.

Because this condition occurred, the R4 may not be fully reflective of the program
performance and may not provide the user with the data necessary to make informed
decisions.

Kenya

Performance Monitoring Plan Was Incomplete

Contrary to USAID guidance, USAID/Kenya did not have a complete Performance
Monitoring Plan (PMP) for one of the three indicators reviewed. The PMP for SO1,
Indicator 1.1 did not describe how the data was to be collected and did not include how

USAID – OIG/PA
Agreed-Upon Procedures Report                                                     Page 14
the data was to be manipulated. Mission officials indicated that this condition occurred
because the strategic objective team members did not appear to fully understand the level
of detail required.

ADS 201.3.4.13a states “Performance monitoring plans shall be prepared for each
strategic objective. Specifically, PMPs shall provide detailed descriptions of the
performance indicators to be tracked and specify the source, method, and schedule for
data collection”. In addition, TIPS 7 states that the PMP should specify the method or
approach to data collection for each indicator. Sufficient details on the data collection or
calculation method should be provided to enable the method to be replicated.
Additionally, TIPS No. 7 states that information included in a PMP shall enable
comparable performance data to be collected over time, even in the event of staff
turnover, and shall clearly articulate expectations in terms of schedule and responsibility.

By not including the method to collect data, it is more difficult to ensure consistency and
comparability in subsequent years.          Without precise indicator data collection
methodologies in the mission’s Performance Monitoring Plan, USAID/Kenya may be left
without critical tools for planning, managing, and documenting data collection.

Kenya/REDSO

The R4 Was Incomplete

Because a PMP had not been prepared for the indicators tested, the R4 was used as the
PMP by the SO team. Therefore, the R4 was reviewed for all the elements of a PMP.
The SO teams did not explain in the R4 the method to collect data for the three indicators
tested. The R4 did not indicate how the data is generated. The indicators selected were
as follows:

   •   Indicator 1.1 - Effective program and technical support to ESA missions –
       improved management of REDSO/ESA services: percent of REDSO/ESA
       planned service days and task achieved.

   •   Indicator 2.3 - Increased utilization of critical information by USAID and other
       decision-makers in the region – economic growth – enhanced dissemination of
       critical regional development information: number of persons and institutions
       receiving information

   •   Indicator 3.1 - Establish a strong basis for implementation of the Greater Horn of
       Africa Initiative (GHAI) – regional information on food security and conflict
       accessible to African implementers and policymakers: government ministries
       connected to the internet

TIPS 7 states that the plan should specify the method or approach to data collection for
each indicator. Sufficient detail on the data collection or calculation method should be
provided to enable the method to be replicated.

USAID – OIG/PA
Agreed-Upon Procedures Report                                                      Page 15
These conditions occurred because SO team members indicated that they did not appear
to fully understand the requirements and thus these items were omitted. The team
members have subsequently received training and will correct these omissions in the next
submission.

The lack of specific data collection methods increases the risk of inconsistent and
incomparable performance information from year to year.

Performance Monitoring Plan Was Not Developed

Contrary to USAID guidance, we found that REDSO/ESA has not developed
performance monitoring plans for SO1 - Effective program and technical support to ESA
Missions; SO2 - Increased utilization of critical information by USAID and other
decision makers in the region, economic growth; and SO3 - Establish a strong basis for
implementation of the Greater Horn of Africa Initiative. According to the SO teams, they
are in the process of putting together a new performance monitoring plan. We were told,
however, that the updated PMP will not effect the current strategic objectives and their
indicators.

According to ADS 201.3.4.13 “Planning for Performance Management”, “a written PMP
document must be in place for each SO within one year of strategy approval unless
otherwise prescribed by the respective bureau in the strategy review reporting cable”.

According to REDSO personnel, REDSO/ESA has attempted to finalize their PMP for
almost three years. USAID/Washington sent REDSO/ESA several cables asking them to
change their PMP.       Although REDSO/ESA has not received approval from
USAID/Washington, REDSO/ESA still reported on the SOs without a performance-
monitoring plan.

As a result of this condition, the production of the R4 and the processing of the
performance information lack guidance, focus, and structure.

Performance Monitoring Plans Were Not Complete

Contrary to USAID guidance, the data sources identified in the R4 submission for SO1,
SO2, and SO3 lacked precision. Because a PMP had not been prepared for the indicators
tested, the R4 was used as the PMP by the SO team. Therefore, the R4 was reviewed for
all the elements of a PMP. For indicator 1.1, Effective program and technical support to
ESA missions – improved management of REDSO/ESA services: percent of
REDSO/ESA planned service days and task achieved, the SO team indicated the data
source as TDY Reports (STARS data). For indicator 2.3, Increased utilization of critical
information by USAID and other decision-makers in the region – economic growth –
enhanced dissemination of critical regional development information: number of persons
and institutions receiving information, the SO team stated the data source as quarterly
reports and records from program implementers. For indicator 3.1, Establish a strong

USAID – OIG/PA
Agreed-Upon Procedures Report                                                   Page 16
basis for implementation of the Greater Horn of Africa Initiative – regional information
on food security and conflict accessible to African implementers and policymakers:
government ministries connected to the internet, the SO team stated the data source as
REDSO/ESA activity reports. The R4 report did not indicate any specifics related to
which reports or which records from program implementers were actually used in
providing the data reported.

According to TIPS 7 the plan should identify the data source for each performance
indicator. The plan should be as specific as possible so that the same source can be used
routinely. Switching data sources for the same indicator over time may lead to
inconsistencies and misinterpretations.

Mission officials stated that this condition occurred because the SO teams did not fully
understand the USAID requirements. The lack of specific data sources increases the risk
of inconsistent and incomparable performance information from year to year.

Ukraine

Performance Monitoring Plans Were Incomplete

Contrary to USAID guidance, we noted that in the Performance Monitoring Plan for
indicator 1.3b., “Industrial Production,” the definition was vague and did not fully
explain what the indicator measures.

The methodologies for gathering data outlined in the PMP for SOs 1.3a and 1.3b are
unclear as to the process of how the data is collected. The PMP included a brief
description as to where the information came from, but did not explain the process as to
how the data is acquired. For example, the methodology for SO1.3b, indicator number 1,
“Industrial Production,” stated only to check internet industrial production rate statistics.
Which specific statistics to check and how to find them was not identified or explained,
thus making it difficult for comparable performance data to be collected over time.

ADS 201.3.4.13a states “Performance monitoring plans shall be prepared for each
strategic objective. Specifically, PMPs shall provide detailed descriptions of the
performance indicators to be tracked and specify the source, method, and schedule for
data collection”. TIPS No. 7 states that information included in a PMP shall enable
comparable performance data to be collected over time, even in the event of staff
turnover, and shall clearly articulate expectations in terms of schedule and responsibility.
In addition, TIPS 7 states that the PMP should specify the method or approach to data
collection for each indicator. Sufficient details on the data collection or calculation
method should be provided to enable the method to be replicated.

These conditions occurred because mission personnel indicated that they may not have
been aware of USAID’s requirement to define the indicators and map out the
methodology used in acquiring data.



USAID – OIG/PA
Agreed-Upon Procedures Report                                                       Page 17
Without precise indicator definitions and data collection methodologies in the mission’s
performance monitoring plan, USAID/Ukraine may be left without critical tools for
planning, managing, and documenting data collection.




Data Limitations Were Not Disclosed and Data Quality Assessment Not Performed

Data limitations were not disclosed in the R4 summary of SO1.3b. The R4 summary
mentions possible negatives, but does not relate them directly to the SO, or the indicator.
ADS 203.3.6.1 “R4 Report Content” states, “any data quality limitations must be noted in
either the text or in the ‘notes’ section of the R4 data table.

Also, we found that a data quality assessment was not performed for SO1.3b. The team
relied on data available in a general publication provided by the “Intelligent Unit” as their
primary data source. The SO team leader indicated that the publication was reliable. The
team, however, has not undertaken any effort to assess the extent upon which the data can
be relied nor has the team leader documented his assessment that the publication is
reliable.

We found that the data quality assessment was not performed as required for SO1.3a. In
an interview with the SO1.3a team leader, we were told that DQAs were conducted,
however, we were not provided with evidence to support that DQAs were performed.
The team relied on data provided by a local agency, the Land Resource Committee, and
from a USAID contractor, RONCO. We noted that the team did not have a formal
system in place to access the data from the local agency or from the contractor.
According to the team, data from the local agency is adjusted by about 15% to
compensate for possible overstatements.

USAID’s R4 guidance requires that data quality assessments be performed when
indicators are initially established and updated at least every three years thereafter. Also,
ADS 203.3.6.6 states that when conducting data quality assessments, operating units
must document the assessment in the “Comments” section of the R4 performance data
table and retain documentation of the assessment in the SO Team’s performance
management files.

This condition occurred because mission personnel indicated that they may have been
unaware of the need to include the data limitations in the mission’s R4 report.

Because of these conditions, USAID management, Congress, and the public did not have
sufficient information to determine the degree of reliance to be placed on the data
reported for the indicator in question. Also, without the required data quality
assessments, USAID/Ukraine will not have an adequate level of assurance that data
quality met validity, timeliness, and reliability standards for results-oriented management,
the lack of which could have an adverse effect upon decision making.

USAID – OIG/PA
Agreed-Upon Procedures Report                                                       Page 18
PMP and R4 Results Data are Not Adequately Supported

The data reported in the PMP for SO1.3b lacked supporting documentation. The SO
team was unable to provide documentation to support performance data reported in the
PMP for SO1 indicator 1.3b - “Industrial Production.” The PMP indicated that the
performance data reported for the indicator was obtained from the “Economist
Intelligence Unit,” without a reference to the specific publication date and page number.
Also, SO personnel were unable to provide a copy of the magazine being used as the data
source.

GAO publication Standards for Internal Control in the Federal Government requires
Federal agencies to develop and implement internal management control systems that:

   •   Compare actual program results against those anticipated
   •   Provide for complete, reliable, and consistent information
   •   Ensure that performance information is clearly documented and that the
       documentation is readily available for examination

According to the SO team, this condition occurred because the SO team was not aware of
USAID guidance related to documentation of data source.

This problem would impair USAID/Ukraine’s and USAID management’s ability to
measure progress in achieving program objectives and use performance information in
budget allocation decisions.

Performance Indicator Was Irrelevant and Inapplicable

Performance indicator 2.1 was no longer relevant to the strategic objective. SO1.3a,
indicator 2.1 – “Increased access to land for private farming” - measures the number of
legally valid land titles issued to privatize landowners in the Ukraine. In order for land to
be considered privately owned, a sole individual or couple must own it. If a company or
companies own the land, it is considered collectively owned. Over the years, the
collective landowners began to take over small acres of land that belonged to some of the
smaller landowners. To prevent this from continuing, the Government of the Ukraine
passed a decree in 1999 to legally dissolve all collective farms forcing them to
“privatize”. Since the decree was passed, a few collective farms have privatized and
some have been included in the data that was collected by both RONCO and the Land
Resource Committee. Because all collective farms have legally been liquidated, there is
no way to distinguish what is genuinely privately owned. Although the SO indicated this
information as a limitation, team 1.3a continued to use the indicator as a unit of measure
in the 2003 R4 report.

ADS 203.3.6.3 “Selection of Performance Indicators for R4 Reporting” states that
“Indicators selected for R4 reporting must measure change that is clearly and reasonably
attributable, at least in part, to USAID efforts”. Attribution exists when the links between

USAID – OIG/PA
Agreed-Upon Procedures Report                                                       Page 19
the outputs produced by USAID’s financed activities and the results being measured are
clear and significant.

The Government of the Ukraine legally dissolved all collective farms and replaced them
by private sector companies. This measure no longer effectively reflects the performance
of the SO/program, but because it continues to be included uninformed users may use this
outdated information to make decisions.

Ghana

Performance Monitoring Plans Need to be Prepared or Updated and Improved

The FY 2000 audit report included a recommendation to improve Performance
Monitoring Plans for all objectives in the mission. We obtained and reviewed the
performance monitoring plans for strategic objectives 1, 2, and 3 and noted several areas
where the recommendation made in 2000 had not been adequately addressed. The
following paragraphs discuss our findings on two of the indicators reviewed:

   •    SO1 - Increase in Private Sector Growth, Indicator - Number of financial
        institutions providing credit to USAID Ghana assisted micro-enterprises did not
        adequately identify the data collection method. Based upon our review of the
        revised indicator reference sheet for this indicator, we noted that the data
        collection method has not been specifically stated. The reference indicator sheet
        states that the data collection method is “…institutions of the implementing
        grantee of the Micro-enterprise component of TIRP (Technoserve) works with
        and is captured in their own M&E reporting system.” This explanation gives no
        indication of what type of information is being collected and how it is compiled
        and reported to USAID/Ghana. Also, it is not specific in its explanations so that
        future users can apply the same methodology to the information, so that data
        collected and reported will not be compromised.

   •    SO3 - Improved Family Health: Couple Years Protection indicator - the data
        collection method was not adequately identified. The revised indicator reference
        sheet states that “routine health information was collected at the clinic level”.
        This statement does not clearly indicate the type of information collected and
        relied upon. This brief description does not lend any specific information in order
        to ensure that the data collection method and information collected remains
        consistent from year to year, even if personnel changes.

   •    Also, SO3 - Contraceptive Prevalence Rate indicator - did not adequately explain
        the data collection method used. The indicator reference sheet stated that the data
        was collected through a “nationally representative sample survey”. The indicator
        did not state the type of information gathered on the survey, the number of people
        to be surveyed, or the method of disseminating the survey. The information in
        this indicator was generic and gave no details that could be used in years to come
        in order to ensure that the method used to collect the data is consistent.

USAID – OIG/PA
Agreed-Upon Procedures Report                                                      Page 20
ADS 203 states that the performance monitoring plan should include information that
will allow comparable data to be collected from year to year. ADS 201.3.4.13a states
that the plans are to provide a detailed description of the performance indicators that will
be tracked. The PMP should also specify the source, method, and schedule for data
collection.

We noted that USAID/Ghana has put in place procedures such as monthly meetings and
semi-annual reviews of performance monitoring plans in order to ensure that
performance monitoring plans are adequately prepared and maintained. The outstanding
exceptions, however, noted from the fiscal year 2000 audit recommendation number one
indicate that additional procedures may be necessary in order for USAID/Ghana to ensure
that all strategic objectives fully comply with the standards set forth by USAID.

SO1’s team felt that they had adequately considered the recommendation from the FY
2000 audit and had made adjustments accordingly. It was their opinion that since the
indicator refers to financial institutions that lend credit to USAID/Ghana-assisted
entrepreneurs, that anyone reading the indicator information should assume that the
information being collected is financial information relating to the number of businesses
that were granted lines of credit. SO3’s team stated that the information being collected
is the general information given to the nurse at the clinic when each patient registers for
each visit. Mission officials stated that the strategic objective team felt that the
explanation given was the only way they could describe the data being used for this
indicator.

Data Quality Assessments Were Not Performed

The FY 2000 audit report included the recommendation that USAID/Ghana establish
procedures to ensure that data quality assessments are completed and documented at
required intervals for indicators in its Results Review and Resource Requests (R4) in
accordance with USAID and federal guidance. We obtained and reviewed the R4 and the
PMPs for strategic objectives 1, 2, and 3. We noted that the data quality assessments
recommendation had not been adequately addressed. The following paragraphs discuss
our findings on two of the strategic objectives:

   •   In SO1 - Increase in Private Sector Growth - we reviewed the following
       indicators: increased visits and revenue to central region tourist sites, and number
       of financial institutions providing credit to USAID/Ghana assisted micro-
       enterprises. We noted that the indicators did not include an actual assessment of
       the quality of the data collected. We observed that the indicators included an
       explanation of when the data was initially assessed and plans for assessments in
       the future, however, the plans did not give an actual report or summary of an
       assessment of the quality of the data being collected and submitted to
       USAID/Ghana.




USAID – OIG/PA
Agreed-Upon Procedures Report                                                      Page 21
   •   We reviewed the following indicators for SO3 - Improved Family Health: couple
       years protection; condom sales; and full immunization of children. We noted that
       the data quality assessment was not reported for the couple years protection and
       the full immunization of children indicators. The couple years protection
       indicator reference sheet stated that “PPAG/MOH (Planned Parenthood
       Association of Ghana/Ministry of Health) 1996; EngenderHealth continuous from
       project onset; GSMF part of annual financial and warehouse audit (sales figures)”.
       Although this description gives some information regarding the sources of data,
       there was no indication of an assessment of the quality of the data being provided
       by these agencies. We also noted that the full immunization of children indicator
       only indicated that the initial data quality assessment took place in 1998. No
       detailed information was given about the results of that assessment.

According to ADS 203.3.6.6, “Assessing the Quality of Performance Data,” operating
units are to “assess data quality when establishing the performance indicators and when
choosing data collection sources and methods. For each indicator reported in the R4
performance data tables, data quality must be reassessed as needed but no less than once
every three years…Further, when conducting data quality assessments, operating units
must document the assessment in the “Comments” section of the appropriate R4
performance data table and retain documentation of the assessment”.

Although strategic objective team members explained that they had performed the data
quality assessments, they did not include this information in the R4. The current
description in the indicator reference sheet gives no indication that the quality of the data
collected has been assessed and is reliable. Failure to provide information on the
reliability of the data may raise questions as to the actual results of data reported.

Data Reported In R4 Was Not Documented or Data Limitation Was Not Disclosed

The FY 2000 audit report included the recommendation that USAID/Ghana revise its
procedures to ensure that data reported in the Mission’s Results Review and Resource
Request reports are supported by adequate documentation, have comparable baselines,
and disclose any data limitations in accordance with USAID and Federal guidance. We
obtained and reviewed the PMPs for strategic objectives 1, 2, and 3 and noted several
areas where the recommendation made in 2000 had not been adequately addressed.

   •   In SO1 - Increase in Private Sector Growth - we reviewed the following
       indicators: value of selected non-traditional exports, and increased visits and
       revenue to central region tourist sites. We noted that the strategic objective team
       did not report data limitations for increased visits and revenue to central region
       tourist sites in the R4 as required.

   •   We reviewed theR4 for the following indicators for SO3 - Improved Family
       Health: couple years protection; condom sales; and full immunization of children.
       We noted that the strategic objective team did not report data limitations on any of


USAID – OIG/PA
Agreed-Upon Procedures Report                                                       Page 22
       the three indicators.    The limitations were included in the PMP but are also
       required to be included in the R4.

According to ADS 203.3.6.1, “any data limitations must be noted in either the text or in
the notes section of the R4 data table”.

We noted that these conditions occurred because in some instances the strategic objective
team had identified issues that they considered limitations of the information being
collected, however, the team neglected to include the data limitations in the R4 report.

As a result of not disclosing the above data limitation, readers of the mission’s R4 might
misinterpret reported results as being accurate and reflective of the population as a whole.
Consequently, USAID management, Congress, and the public did not have sufficient
information to determine the level of reliance to be placed on the data reported.




USAID – OIG/PA
Agreed-Upon Procedures Report                                                      Page 23
